<html>
<title> - INTEGRATED PLANNING AND PERMITTING FRAMEWORK: AN OPPORTUNITY FOR EPA TO PROVIDE COMMUNITIES WITH FLEXIBILITY TO MAKE SMART INVESTMENTS IN WATER QUALITY</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                   INTEGRATED PLANNING AND PERMITTING
                  FRAMEWORK: AN OPPORTUNITY FOR EPA TO
                PROVIDE COMMUNITIES WITH FLEXIBILITY TO
                MAKE SMART INVESTMENTS IN WATER QUALITY

=======================================================================

                                (113-79)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON

                    WATER RESOURCES AND ENVIRONMENT

                                 OF THE

                              COMMITTEE ON

                   TRANSPORTATION AND INFRASTRUCTURE

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 24, 2014

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation




                  U.S. GOVERNMENT PUBLISHING OFFICE
88-819                    WASHINGTON : 2015
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman

DON YOUNG, Alaska                    NICK J. RAHALL, II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         ELEANOR HOLMES NORTON, District of 
JOHN J. DUNCAN, Jr., Tennessee,      Columbia
  Vice Chair                         JERROLD NADLER, New York
JOHN L. MICA, Florida                CORRINE BROWN, Florida
FRANK A. LoBIONDO, New Jersey        EDDIE BERNICE JOHNSON, Texas
GARY G. MILLER, California           ELIJAH E. CUMMINGS, Maryland
SAM GRAVES, Missouri                 RICK LARSEN, Washington
SHELLEY MOORE CAPITO, West Virginia  MICHAEL E. CAPUANO, Massachusetts
CANDICE S. MILLER, Michigan          TIMOTHY H. BISHOP, New York
DUNCAN HUNTER, California            MICHAEL H. MICHAUD, Maine
ERIC A. ``RICK'' CRAWFORD, Arkansas  GRACE F. NAPOLITANO, California
LOU BARLETTA, Pennsylvania           DANIEL LIPINSKI, Illinois
BLAKE FARENTHOLD, Texas              TIMOTHY J. WALZ, Minnesota
LARRY BUCSHON, Indiana               STEVE COHEN, Tennessee
BOB GIBBS, Ohio                      ALBIO SIRES, New Jersey
PATRICK MEEHAN, Pennsylvania         DONNA F. EDWARDS, Maryland
RICHARD L. HANNA, New York           JOHN GARAMENDI, California
DANIEL WEBSTER, Florida              ANDREE CARSON, Indiana
STEVE SOUTHERLAND, II, Florida       JANICE HAHN, California
JEFF DENHAM, California              RICHARD M. NOLAN, Minnesota
REID J. RIBBLE, Wisconsin            ANN KIRKPATRICK, Arizona
THOMAS MASSIE, Kentucky              DINA TITUS, Nevada
STEVE DAINES, Montana                SEAN PATRICK MALONEY, New York
TOM RICE, South Carolina             ELIZABETH H. ESTY, Connecticut
MARKWAYNE MULLIN, Oklahoma           LOIS FRANKEL, Florida
ROGER WILLIAMS, Texas                CHERI BUSTOS, Illinois
MARK MEADOWS, North Carolina
SCOTT PERRY, Pennsylvania
RODNEY DAVIS, Illinois
MARK SANFORD, South Carolina
DAVID W. JOLLY, Florida

                                  (ii)



            Subcommittee on Water Resources and Environment

                       BOB GIBBS, Ohio, Chairman

DON YOUNG, Alaska                    TIMOTHY H. BISHOP, New York
GARY G. MILLER, California           DONNA F. EDWARDS, Maryland
SHELLEY MOORE CAPITO, West Virginia  JOHN GARAMENDI, California
CANDICE S. MILLER, Michigan          LOIS FRANKEL, Florida
ERIC A. ``RICK'' CRAWFORD,           ELEANOR HOLMES NORTON, District of 
Arkansas,                            Columbia
  Vice Chair                         EDDIE BERNICE JOHNSON, Texas
DANIEL WEBSTER, Florida              GRACE F. NAPOLITANO, California
JEFF DENHAM, California              STEVE COHEN, Tennessee
REID J. RIBBLE, Wisconsin            JANICE HAHN, California
THOMAS MASSIE, Kentucky              RICHARD M. NOLAN, Minnesota
STEVE DAINES, Montana                ANN KIRKPATRICK, Arizona
TOM RICE, South Carolina             DINA TITUS, Nevada
MARKWAYNE MULLIN, Oklahoma           SEAN PATRICK MALONEY, New York
MARK MEADOWS, North Carolina         NICK J. RAHALL, II, West Virginia
RODNEY DAVIS, Illinois                 (Ex Officio)
MARK SANFORD, South Carolina
DAVID W. JOLLY, Florida
BILL SHUSTER, Pennsylvania (Ex 
Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................   vii

                               TESTIMONY

Hon. David Berger, mayor, city of Lima, Ohio, on behalf of the 
  United States Conference of Mayors.............................    12
Todd Portune, commissioner, Hamilton County Board of 
  Commissioners, on behalf of the ``Perfect Storm'' Communities 
  Coalition......................................................    12
Stephen Meyer, P.E., director, Department of Environmental 
  Services, city of Springfield, Missouri, on behalf of the 
  National Association of Clean Water Agencies...................    12
Ron Poltak, executive director, New England Interstate Water 
  Pollution Control Commission, on behalf of the Association of 
  Clean Water Administrators.....................................    12

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Hon. David Berger................................................    32
Todd Portune.....................................................    71
Stephen Meyer, P.E...............................................    78
Ron Poltak.......................................................    87

                       SUBMISSIONS FOR THE RECORD

Hon. Larry Bucshon, a Representative in Congress from the State 
  of Indiana, request to submit written testimony from Hon. Lloyd 
  Winnecke, mayor of the city of Evansville, Indiana.............     6
Hon Bob Gibbs, a Representative in Congress from the State of 
  Ohio, request to submit the following into the record:

    Hon. Donald L. Plusquellic, mayor, city of Akron, Ohio, 
      written testimony..........................................    93
    Joint written testimony from the following organizations: 
      American Rivers, Stacey Detwiler, associate director, clean 
      water supply and government relations; Clean Water Action, 
      Jennifer Peters, national water campaigns coordinator; 
      Natural Resources Defense Council, Larry Levine, senior 
      attorney; and Southern Environmental Law Center, Navis A. 
      Bermudez, deputy legislative director......................    96
    Joint written testimony from the following Representatives in 
      Congress: Hon. Marcia L. Fudge, of the State of Ohio, and 
      Hon. Steve Chabot, of the State of Ohio....................   104
    Joint written testimony from the following Representatives in 
      Congress: Hon. Robert E. Latta, of the State of Ohio, and 
      Hon. Timothy J. Walz, of the State of Minnesota............   106
    U.S. Environmental Protection Agency, written testimony......   108
Hon. Grace F. Napolitano, a Representative in Congress from the 
  State of California, request to submit the following into the 
  record:

    Hon. Mary Ann Lutz, mayor, city of Monrovia, California, 
      written testimony..........................................   113
    United States Conference of Mayors, Mayors Water Council, The 
      Financial Impact of Public Water and Federal Manadate Costs 
      on Economically Vulnerable Populations in San Gabriel 
      Valley/Los Angeles County Communities--An Interim Report 
      (July 22, 2014)............................................   115

                         ADDITION TO THE RECORD

Laura Vaught, Associate Administrator, U.S. Environmental 
  Protection Agency, responses to questions for the record issued 
  by Hon. Grace F. Napolitano, a Representative in Congress from 
  the State of California \1\....................................   143

----------
\1\ Questions for the record are not typically issued to an 
organization that was not a hearing witness. In this case, however, the 
U.S. Environmental Protection Agency was invited to be a hearing 
witness and was unable to attend, and so it submitted a written 
statement for the record (see page 108).

[GRAPHIC] [TIFF OMITTED] 


INTEGRATED PLANNING AND PERMITTING FRAMEWORK: AN OPPORTUNITY FOR EPA TO 
PROVIDE COMMUNITIES WITH FLEXIBILITY TO MAKE SMART INVESTMENTS IN WATER 
                                QUALITY

                              ----------                              


                        THURSDAY, JULY 24, 2014

                  House of Representatives,
   Subcommittee on Water Resources and Environment,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
Room 2167, Rayburn House Office Building, Hon. Bob Gibbs 
(Chairman of the subcommittee) presiding.
    Mr. Gibbs. The Subcommittee on Water Resources and 
Environment of the Committee on Transportation and 
Infrastructure will come to order.
    A couple of housekeeping issues first. I ask unanimous 
consent that Mr. Bucshon from Indiana be included in today's 
hearing.
    Hearing no objection, so ordered.
    I ask unanimous consent that the hearing record be kept 
open for 30 days after this hearing in order to accept written 
testimony for the hearing record. Is there any objection?
    [No response.]
    Mr. Gibbs. Without objection, so ordered.
    I also ask unanimous consent that written testimony 
submitted on behalf of the following be included in the hearing 
record: jointly from Representatives Chabot and Fudge; jointly 
from Representatives Latta and Walz; from the mayor of the city 
of Akron, Ohio; from the Environmental Protection Agency; and 
jointly from American Rivers, Clean Water Action, Natural 
Resources Defense Council, and the Southern Environmental Law 
Center.
    Is there objection?
    [No response.]
    Mr. Gibbs. Without objection, so ordered.
    Today we have one panel. We will welcome our witnesses in a 
few minutes, but I will open here with a statement.
    First of all, I would like to welcome everyone here to our 
hearing today for ``Integrated Planning and Permitting 
Framework: An Opportunity for the EPA to Provide Communities 
with Flexibility to Make Smart Investments in Water Quality.''
    This is a followup to hearings we held last Congress on 
EPA's integrated planning framework. In our previous hearings, 
we heard about how communities all across the Nation are facing 
increasing regulatory enforcement and financial pressures not 
only to address sewer overflows and other aging wastewater 
infrastructure issues, but also to deal with numerous other 
burdensome regulatory issues that recently have become national 
priorities.
    These include more stringent and widespread regulation of 
stormwater discharges, nutrients and other pollutants, total 
maximum daily loads, and public drinking water systems, which 
could lead to many communities having to install and operate at 
great expense advanced treatment, removal and prevention 
technologies.
    All of these initiatives are piling up additional layers of 
regulatory requirements and economic burdens on our 
communities, and somehow our communities have to deal with it. 
A large portion of these regulatory mandates are going unfunded 
by the Federal and State governments, with the result that many 
municipalities have had to make substantial increases in 
investments in wastewater and public water infrastructure in 
recent years. Local communities and ratepayers are now 
increasingly getting economically tapped out.
    In response to some of these issues, EPA developed an 
integrated planning and permitting policy in 2012 that was 
intended to provide some flexibility on how communities managed 
their regulatory and enforcement mandates under the Clean Water 
Act. The policy outlines how communities can prioritize 
multiple Clean Water Act obligations and develop plans for 
addressing those obligations in a flexible manner and reduce 
their cost burdens.
    At earlier hearings we heard from witnesses about the 
implementation of the policy. Concerns that were raised 
included inadequate consideration of strained municipal budgets 
and affordability, especially in setting compliance timelines; 
the continued focus on using enforcement mechanisms in the 
integrated planning process rather than permit; and 
insufficient regulatory flexibility to adapt to new or changed 
circumstances.
    Some of the witnesses also urged the EPA to become more 
proactive and collaboratively assist communities through 
technical assistance and pilot demonstration projects to 
develop flexible, practical, and affordable integrated plan.
    I am concerned that 2 years have passed since the EPA 
released the final policy, and little seems to have been done 
to successfully implement it. I understand that while several 
local governments are working on integrated plans, no such 
plans have been approved, and one has been disapproved.
    EPA has still not done enough to define the roles and 
responsibilities of the EPA, the States and the communities in 
implementing the policy. It has not provided clear standards 
for approval of integrated plans.
    It appears that some at the EPA, particularly in a number 
of Agency regional offices, still may not be willing to provide 
flexibility to communities and limit EPA's enforcement efforts 
even when the goal is to achieve a more efficient compliance 
with the Clean Water Act.
    A continued emphasis on an enforcement approach, including 
consent decrees and a resistance to considering affordability 
and innovative approaches to addressing water quality issues, 
will undermine the flexibility that the EPA ostensibly is 
trying to seek to provide under this policy.
    However, there might be some cause for optimism that the 
EPA is finally starting to become more supportive of 
implementing an integrated planning policy. I am pleased that 
back in May the EPA announced the availability of some Federal 
funding to a few communities for technical assistance in 
developing municipal integrated plans. This will be an 
important first step in demonstrating support for and 
implementing the policy, although EPA still needs to do more.
    To help with this, I and jointly with Ranking Member Tim 
Bishop have written a letter to the House Appropriations 
Committee requesting their support in directing EPA resources 
towards pilot projects to assist communities in developing 
integrated plans.
    There are several legislative proposals under development 
that attempt to address various issues and concerns related to 
the EPA's integrated planning initiative. These proposals 
include H.R. 2707, the Clean Water Compliance and Ratepayer 
Affordability Act of 2013, introduced by Congressman Chabot; 
H.R. 3862, the Clean Water Affordability Act of 2014, 
introduced by Congressman Latta; and the draft bill entitled 
``The Water Quality Improvement Act of 2013'' being circulated 
by members of the U.S. Conference of Mayors, including Mayor 
Berger who is one or our witnesses today.
    I would like to hear from today's witnesses about their 
thoughts on EPA's implementation of the integrated planning 
policy today and whether EPA has adequately addressed their 
concerns.
    In addition, I would also like to hear from our witnesses 
about the pending legislative proposals and how specifically 
the proposals could help address their concerns and any 
impediments that stand in the way of making an effective 
initiative for both communities and the regulators.
    It is time for a national clean water strategy to evolve 
from a one size fits all mandate and enforcement approach to an 
integrative strategy that recognizes the individual public 
health needs and water quality benefits of water and wastewater 
utilities, and the resource limitations of communities.
    Our goal is clean water, and that is best achieved by 
focusing more on facilitating compliance and less on punitive 
enforcement mechanisms. Hopefully, this initiative will truly 
give our communities the flexibility they need to prioritize 
their water quality requirements and address the huge, unfunded 
costs associated with the growing number of mandates stemming 
from the EPA water rules and enforcement actions.
    Lastly, I should mention that we had invited the EPA to 
participate in this hearing in order to get the Agency's 
perspective on implementing the policy. Unfortunately, however, 
the EPA declined to participate due to what the Agency said was 
other commitments.
    I yield to my ranking member, Mr. Bishop, for any remarks 
you may have.
    Mr. Bishop. Thank you very much, Mr. Chairman, for holding 
this morning's hearing.
    In my view, today's hearing demonstrates the challenges and 
the frustrations of two intersecting trends in our efforts to 
improve the overall quality of the Nation's waters. As I have 
noted in the past, there is significant evidence that in the 
last decade this Nation has stopped making significant progress 
in improving the overall quality of its waters.
    For example, if one reviews the last three State 
assessments of water quality covering the years from 2008 
through 2012, the results should be alarming. For rivers and 
streams, State assessments show a steady decline in water 
quality from 50 percent of assessed rivers and streams not 
meeting their State water quality standards in 2008, to 52 
percent of these waters not meeting State water quality 
standards today.
    Similarly for lake and reservoirs, the 2008 State 
assessments showed that 64 percent of these waters failed to 
meet State water quality standards. Today 68 percent of 
assessed lakes and reservoirs fail to meet these standards.
    Finally, in 2008, State data shows that 45 percent of 
assessed coastal shoreline miles failed to meet State water 
quality standards. Today a shocking 86 percent of assessed 
coastal shoreline miles fail to meet State standards.
    These trends are also reflected in the Environmental 
Protection Agency's recent wadeable streams assessment. For 
example, in 2006, EPA noted that nationally 41.9 percent of the 
Nation's wadeable streams were given a poor rating for 
biological condition, while only 28.2 percent were given a good 
assessment. In 2013, EPA's followup report noted that 55.3 
percent of the Nation's wadeable streams have a poor rating, 
but only 20.7 percent have a good rating.
    This information suggests that we are moving in the wrong 
direction in improving the quality of our Nation's water 
resources. Yet the reality is that any significant additional 
improvements in water quality will be complicated, more 
expensive, and more politically challenging.
    The second trend highlighted at this morning's hearing 
focuses back on the Congress and how the Federal Government has 
stopped making significant Federal investments in improving our 
Nation's water quality. For example, only 4 years ago Congress 
appropriated over $6 billion to the Clean Water SRF to finance 
the cost of necessary wastewater infrastructure, $2.1 billion 
through the regular appropriations process and an additional $4 
billion through the Recovery Act.
    Since that time, annual appropriations for the Clean Water 
SRF have been declining from an appropriation of $1.5 billion 
in fiscal year 2011 to a recommendation of $1 billion in the 
chairman's mark of the Interior and Environmental 
Appropriations Bill for 2015. Not surprising as Federal 
investments in water quality improvements decrease, we hear 
more and more concern about the risk in unfunded Federal 
mandates.
    To be clear, I do not share the view that the recent 
actions of EPA or the Corps are the result of overzealous 
Federal agencies. In my view, these agencies are simply doing 
the job that we, the Congress, told them to do over 40 years 
ago, to ``restore and maintain the chemical, physical and 
biological integrity of the Nation's waters.''
    EPA and the State regulatory agencies see the same trend 
lines in declining water quality that I mentioned earlier and 
are trying to do something about them. However, in carrying out 
the job we gave them, they are exposing the difficulties that I 
also mentioned earlier: that continued improvement in restoring 
and protecting water quality will be more complicated, more 
expensive, and more politically challenging.
    To our witnesses, let me clearly say that I am sympathetic 
to all that the States and local communities are compelled to 
accomplish with limited funding. However, I am not convinced 
that our constituents have thrown up the white flag on making 
further improvements to our Nation's water quality. We should 
not be satisfied that, as some have suggested, our waters are 
as clean as they can ever be.
    We must continue to make progress in achieving the goals we 
established over four decades ago, and we, the Congress, must 
be willing to put resources on the table for States and 
localities to accomplish this task.
    Earlier this summer the President signed into law the Water 
Resources Reform and Development Act, which includes the first 
reauthorization of the Clean Water State Revolving Fund ever. 
This new law will provide additional financial flexibilities to 
States and to communities to make the cost of building water 
infrastructure more affordable. Enactment of WRRDA was a 
tremendous first step and one that we should take pride in 
discussing.
    However, I think we all agree it is only the first step. 
Now we must follow through on providing the Federal resources 
necessary to partner with our States and our communities to get 
this job done. If we remain committed to the goals of fishable 
and swimmable waters, then we must be willing to commit to 
providing a portion of the funds to do so.
    Investing in our water infrastructure network, like so many 
of the things we do in this committee, is an investment in our 
Nation's future. Let us not shortchange the public 
environmental and economic health for generations to come by 
failing to meet this commitment.
    I yield back the balance of my time.
    Mr. Gibbs. At this time I yield to Mr. Bucshon for a 
unanimous consent request.
    Dr. Bucshon. Thank you, Mr. Chairman.
    I would ask unanimous consent to submit a letter from Lloyd 
Winnecke, mayor of the city of Evansville, Indiana, to Chairman 
Gibbs and to Ranking Member Bishop.
    Mr. Gibbs. So ordered.
    [The letter presented by Dr. Bucshon follows:]
    [GRAPHIC] [TIFF OMITTED] T8819.007
    
    [GRAPHIC] [TIFF OMITTED] T8819.008
    
    [GRAPHIC] [TIFF OMITTED] T8819.009
    
    [GRAPHIC] [TIFF OMITTED] T8819.010
    
    [GRAPHIC] [TIFF OMITTED] T8819.011
    
    Mr. Gibbs. I also ask unanimous consent for Mr. Chabot to 
sit on the committee. Any objection?
    [No response.]
    Mr. Gibbs. So ordered.
    At this time other Members who have testimony may enter it 
for the record.
    I want to call on Mr. Chabot to allow him to introduce one 
of our witnesses today.
    Mr. Chabot. Thank you, Mr. Chairman.
    I will be very brief. I want to thank you and the committee 
for holding this very important hearing, and I want to 
especially thank one of the county commissioners from Hamilton 
County, Todd Portune, who has held that office for quite a few 
years, and prior to that he was also a member of Cincinnati 
City Council, and I was actually a member of both of those fine 
institutions as well.
    We are different parties, but this is an issue that we 
agree on, and that is what we ought to give local communities 
more flexibility so that they can meet the same high clean 
water standards that are required now, but do it at a more 
reasonable cost to the ratepayers and the taxpayers.
    So I want to commend him for his leadership in this area. 
He has worked with a whole coalition of other similarly 
situated elected officials across the country, and this is 
bipartisan legislation introduced by another Democratic Member 
of Congress, Marcia Fudge from Cleveland, and she is also the 
head of the Congressional Black Caucus and also a different 
party than myself, but this is an issue that we agree on.
    And I want to thank Mr. Portune for his leadership in this 
area and look forward to hearing his testimony today.
    Thank you.
    Mr. Gibbs. Thank you.
    Also today we have Mr. David Berger, who is the mayor of 
the city of Lima, Ohio. He is representing the U.S. Conference 
of Mayors and is a member of USCM's Mayors Water Council.
    We also have Mr. Stephen Meyer, who is the director of the 
Department of Environmental Services for the city of 
Springfield, Missouri. He is representing the National 
Association of Clean Water Agencies.
    And we have Mr. Ron Poltak. Did I say it right?
    Mr. Poltak. Poltak.
    Mr. Gibbs. Poltak. OK. It was close. I am doing better. 
Executive director of the New England Interstate Water 
Pollution Control Commission, and he is representing the 
Association of Clean Water Administrators.
    Welcome to all today, and thank you for being here, and we 
will turn it over to Mayor Berger for your testimony, and the 
floor is yours. Welcome.

 TESTIMONY OF HON. DAVID BERGER, MAYOR, CITY OF LIMA, OHIO, ON 
BEHALF OF THE UNITED STATES CONFERENCE OF MAYORS; TODD PORTUNE, 
COMMISSIONER, HAMILTON COUNTY BOARD OF COMMISSIONERS, ON BEHALF 
OF THE ``PERFECT STORM'' COMMUNITIES COALITION; STEPHEN MEYER, 
 P.E., DIRECTOR, DEPARTMENT OF ENVIRONMENTAL SERVICES, CITY OF 
SPRINGFIELD, MISSOURI, ON BEHALF OF THE NATIONAL ASSOCIATION OF 
 CLEAN WATER AGENCIES; AND RON POLTAK, EXECUTIVE DIRECTOR, NEW 
   ENGLAND INTERSTATE WATER POLLUTION CONTROL COMMISSION, ON 
    BEHALF OF THE ASSOCIATION OF CLEAN WATER ADMINISTRATORS

    Mr. Berger. Good morning. Thank you for inviting me to 
provide an update on integrated planning from the perspective 
of the U.S. Conference of Mayors.
    In my written testimony, which is some 40 pages, I cover in 
detail four topics: the challenges local governments face with 
their water and wastewater systems; the integrated planning 
dialogue between EPA and the Conference of Mayors; the actual 
experiences of individual cities; and finally the legislation 
the Conference of Mayors has developed.
    I will now concentrate on the experiences of cities which 
serves as the basis of our draft Clean Water Improvement Act, 
which is designed to provide solutions.
    Local government, not the Federal Government, is where the 
job of providing water and wastewater services gets done and is 
paid for. We are on an unsustainable path, however, when it 
comes to public water investment and unfunded mandates. We must 
change or we will bankrupt communities and permanently 
impoverish households in those communities.
    EPA is to be commended for their high level and sustained 
involvement in this integrated planning dialogue, including 
Deputy Administrator Bob Perciasepe, Assistant Administrator 
Cynthia Giles, and Acting Assistant Administrator Nancy Stoner. 
Their leadership resulted in the issuance of a green 
infrastructure memorandum and an integrated planning 
memorandum.
    The third anticipated product of the dialogue is a 
memorandum to the regional offices on how they can be more 
flexible. Unfortunately, local governments trying to address 
water issues with the regional offices have not been afforded 
the flexibility discussed with EPA Headquarters. While EPA has 
told us that over a dozen local governments are working on 
integrated plans, no plan has been approved and one has been 
disapproved.
    EPA recently disapproved Evansville's $540 million 
integrated plan even though they used EPA's integrated planning 
framework to integrate SSO, CSO and flood controls. Their plan 
uses an adaptive management approach, relies on green 
infrastructure, and recommends a 28-year implementation period 
to try to remain affordable. It appears EPA has rejected both 
Evansville's plan to use green infrastructure and the city's 
affordability analysis.
    Akron, Ohio's original plan was estimated to cost $865 
million, and the city passed rate increases totaling over 150 
percent to pay for the plan. Late last year the city advised 
EPA about escalating costs to implement its plan which has now 
risen from $865 million to $1.4 billion. An analysis of the 
newly estimated cost by income distribution shows that nearly 
15 percent of households within the city would pay over 10 
percent, 10 percent of their annual incomes to implement the 
plan.
    My community, Lima, Ohio, has a median household income of 
$26,900. The impact of rate increases necessary to meet our 
proposed $100 million-plus integrated plan include the fact 
that some 47 percent of households in my community would 
experience rates above 4 percent of their household incomes.
    We have seen EPA's integrated planning framework as a very 
promising initiative that would allow us to protect the 
environment in an affordable and economically sensible way. Yet 
more than 2 years after the integrated planning framework was 
issued, we are still waiting for EPA to say yes to Lima's 
integrated plan.
    Cities around the Nation are finding that little or no 
change has occurred in the regional offices in dealing with the 
challenges of the Clean Water Act. While headquarters 
prioritizes integrated planning, the regional offices actively 
resist proposals that require flexibility, longer time tables, 
and priority settings and instead focus on high-cost 
approaches, fixed deadlines, and penalties.
    While cities applaud the continuing engagement and good 
faith efforts of EPA Headquarters, we must report that the 
message is not getting through to the regional offices.
    To fill the gap between EPA assurances and EPA action, the 
Conference of Mayors developed a Water quality Improvement Act. 
Mayors greatly appreciate the interest shown by Members of 
Congress, and we are happy several pieces of legislation have 
been developed to address them. However, we are concerned that 
some of the bills will not solve the real world problems 
identified by the Conference of Mayors.
    We are looking for legislation that can benefit all cities 
through all parts of the country that does not leave relief for 
local governments subject to the discretion of the EPA. EPA 
discretion is what we have now, and we are not seeing EPA use 
its discretion in ways that recognize that environmental 
improvements must be affordable.
    We need Congress to provide relief. We need Congress to 
provide oversight and to remember the EPA has its authority 
because of the way the Clean Water Act was written and enacted 
by the Congress. We need Congress to act.
    Thank you.
    Mr. Gibbs. Thank you.
    Mr. Portune, the floor is yours. Welcome.
    Mr. Portune. Mr. Chairman, Ranking Member Bishop, members 
of the subcommittee, thank you for this opportunity to be here 
today.
    As you heard from my good friend and Congressman, and he is 
my Congressman, the Honorable Steve Chabot, my name is Todd 
Portune, and I serve as commissioner for Hamilton County, Ohio, 
and I am here testifying on behalf of the ``Perfect Storm'' 
Communities Coalition in my home community in favor of H.R. 
2707, the Clean Water Compliance and Ratepayer Affordability 
Act.
    The coalition that I represent is made up of communities 
that are dealing with the ``Perfect Storm,'' combinations of 
high unemployment, high home foreclosure rates, stagnant 
economic growth, and an exodus of business and industry, all 
while being mandated to meet expensive wet weather consent 
decrees and stormwater regulations. We very much appreciate the 
subcommittee holding this hearing and want to thank personally 
Representative Chabot and fellow Ohioan, Representative Marcia 
Fudge, for their leadership in introducing the bill and the 
bill's 13 bipartisan cosponsors.
    Hamilton County and our coalition emphatically support H.R. 
2707, the Clean Water Compliance and Ratepayer Affordability 
Act, and in answer to your question, Mr. Chairman, EPA's 
integrated planning policy framework and the Agency's 
implementation of it is inadequate to meet the needs of local 
communities. It has been inadequate to address the concerns 
expressed by this community, and it has failed the American 
people who want clean water, but want clean water met in ways 
that are flexible, affordable and reasonable, and the current 
approach is not.
    The bill, H.R. 2707, does not gut the Clean Water Act, nor 
limit EPA's authorities, but on the contrary it provides 
congressional authorization, direction and guidance in 
implementing EPA' own integrated planning and permitting 
framework.
    H.R. 2707, however, will require the EPA to carry out a 
program to work cooperatively with up to 16 specifically 
identified showcase communities each year for 5 years to 
develop and implement integrated plans to meet their wastewater 
obligations under the Clean Water Act, and in doing so, to 
develop a credible body of data that EPA, the Department of 
Justice and the Congress can rely upon with respect to a new 
approach, green infrastructure approaches to the obligations of 
the Clean Water Act that are more efficient, more effective, 
and more economical to local communities.
    By naming specific showcase communities, the EPA would 
offer a promising opportunity to provide transparency in how it 
is applying these flexible and new and cost effective 
compliance technologies that are being optimized within the 
framework.
    The stake are high, extremely high for the hundreds of 
communities across the Nation that are working diligently to 
conform with EPA mandates. Over the last 10 years along over 
$40 billion in mandated wastewater and stormwater upgrades have 
been required of communities large and small. In fact, 18 of 
that $40 billion, or 44 percent compliance, falls on distressed 
communities, communities that are experiencing some of the 
worst economic conditions in decades.
    Hamilton County is one of those communities. Between 2000 
and 2012, our poverty rate for individuals in the county 
ballooned by over 66 percent. Forty percent of the county 
households have incomes of less than $35,000 per year, and one 
in ten in 2012 had annual incomes of less than $10,000 per 
year.
    These are the families that are hardest hit by the rate 
increases that we project, 350 percent rate increased in order 
to meet the obligations of the Clean Water Act under current 
conditions, and yet those same families will benefit the most 
from the savings that will be realized though the flexibility 
and new technologies that will be allowed through H.R. 2707 and 
the showcase communities program.
    As matters stand today, a green billed approach will result 
in a $500 million savings for Hamilton County alone, and with 
the adoption of 2707, that will translate into additional 
savings for our community and for our residents who are 
struggling to make ends meet and yet to also afford the rates 
that are increasing to meet Clean Water Act obligations.
    Mr. Chairman and members of the committee, we believe that 
H.R. 2707 is the best immediate solution to this issue of 
integrated planning and permitting execution. Other proposed 
legislative changes will require significant changes to the 
Clean Water Act or billions of dollars of additional 
appropriations, neither of which appear to be politically or 
legislatively feasible at this time.
    Our communities need relieve now. We cannot wait for a 
better solution to wind its way through the difficult 
legislative path, but H.R. 2707 will provide relief immediately 
if adopted.
    Hamilton County, Ohio, and the ``Perfect Storm'' 
Communities Coalition look forward to continuing to work with 
you, Chairman Gibbs, Ranking Member Bishop and members of this 
subcommittee, as well as working with the EPA in enacting and 
implementing H.R. 2707.
    I thank you for this opportunity to provide testimony and 
am ready, willing and able to answers any questions you may 
have.
    Thank you.
    Mr. Gibbs. Thank you.
    Mr. Meyer, welcome. The floor is yours.
    Mr. Meyer. Chairman Gibbs, Representative Bishop and 
members of the subcommittee, thank you for the opportunity to 
appear before you.
    My name is Stephen Meyer. I am the director of the 
Department of Environmental Services for the city of 
Springfield, Missouri. I am also the president of the 
Association of Missouri Clean Water Agencies, and I serve on 
the board of directors for the National Association of Clean 
Water Agencies, and that is who I am testifying on behalf of 
today.
    I applaud the subcommittee for holding this important 
hearing on the issue of clean water affordability and the U.S. 
Environmental Protection Agency's integrated planning framework 
for municipal wastewater and stormwater requirements. I am also 
pleased to testify in support of H.R. 3862, the Clean Water 
Affordability Act of 2014.
    NACWA applauds Representatives Bob Latta and Tim Walz for 
leading the efforts in the House to raise awareness of these 
affordability concerns and to help craft practical solutions to 
address them.
    The Clean Water Affordability Act of 2014 does three 
critical things:
    One, it codifies EPA's integrated planning framework and 
incentivizes its adoption by extending NPDES permit terms for 
communities with an approved integrated plan.
    Two, it helps small rural communities more affordably 
finance their clean water obligations by ensuring at least 15 
percent of the State revolving funds are set aside for them.
    Third, require EPA to revise and broaden its guidance for 
determining a community's financial capabilities to more 
accurately reflect a community's financial challenges.
    I urge every member of this subcommittee to cosponsor this 
important legislation.
    I also thank you, Chairman Gibbs and Representative Bishop, 
for being part of a bipartisan group of Members in the House 
and Senate who have requested $5 million for this upcoming 
fiscal year to support an integrated planning pilot program at 
EPA, and I am pleased that the House has included an 
appropriation in support of this request in its fiscal year 
2015 spending proposal.
    Like many others across the Nation, the city of Springfield 
and Green County region are addressing the challenges of 
increasingly stringent environmental regulations from every 
front. From stormwater, to wastewater, to air quality, and 
drinking water, as regulations continue to evolve, our 
community is required to devote more money and resources to 
comply.
    Currently the city of Springfield is operating under a 7-
year, $50 million amended consent judgment to correct sanitary 
sewer overflows through investments in inflow and infiltration 
reduction in our collection systems. After the 7-year period 
concludes, we will anticipate having to move more investments 
at the treatment plant and collection system to completely 
eliminate overflows which will likely cost hundreds of millions 
of dollars.
    We also have a stormwater related TMDL developed for 
several of our river segments impaired by bacteria, metals, 
nutrients and other pollutants that need to be address.
    While the city of Springfield is currently in attainment 
under the Clean Water Act, forthcoming Clean Water Act related 
regulations will likely cause us to go out of attainment 
quickly.
    And finally, we have two closed landfills listed as 
Superfund sites requiring remediation under CERCLA.
    The median household income in Springfield is $42,000. 
Twenty-five percent of our citizens' household income is 
$20,000 or less.
    Because our challenges involve multiple Federal statutes, 
we believe an integrated plan approach is really the only 
practical and affordable way forward to ensure optimization of 
taxpayer resources. At the heart of Springfield's integrated 
plan are six guiding principles: affordability; effectiveness--
that assures the biggest bang for the buck--fairness to ensure 
all citizens are being treated fairly and equally; 
attainability, to ensure measures can be reasonably 
accomplished; measurability, that ensures progress is tracked 
over time; adaptability so that we can adapt and improve based 
on experiences and results.
    We know we will achieve success when community resources 
are directed toward managing environmental issues using the 
most effective solutions to address the most significant 
problems in a way that is affordable to our citizens:
    When we are in compliance with all Federal and State 
regulations while addressing the specific needs of our 
community;
    When we have the ability to address water, air and solid 
waste issues holistically, allowing both our community and the 
regulators to operate more efficiently;
    When our community has a high level of trust that resources 
are being used to address environmental issues effectively and 
efficiently;
    When our community has a clear understanding of how funding 
and other resources will be used to improve environmental 
quality;
    When our community realizes a competitive advantage toward 
growth and economic development and increases in quality of 
life as a consequence of this plan. We have identified specific 
goals relevant to each environmental resource.
    In conclusion, Springfield's integrated plan will offer a 
practical yet effective approach to addressing water, land and 
air challenges. NACWA remains optimistic that with Congress' 
help EPA can advance its framework to address mutual concerns.
    I thank you for the opportunity to appear before you today, 
and I look forward to addressing any questions you may have of 
me.
    Thank you.
    Mr. Gibbs. Thank you.
    Mr. Poltak, welcome. The floor is yours.
    Mr. Poltak. Good morning. Thank you, Chairman Gibbs. Thank 
you, Mr. Bishop.
    My name is Ron Poltak. I am the Executive Director of the 
New England Interstate Water Pollution Control Commission; been 
in that position for 32 years; started my career with Senator 
Muskie writing aspects of the Clean Water Act; been around a 
long time, but I am a young, energetic 66-year-old. So I will 
try to be as quick as I possibly can this morning.
    I am here representing ACWQ, the Association of Clean Water 
Administrators. ACWA has been very active over the course of 
the inception of the concept of the integrated planning 
approach. We have been extremely supportive of EPA and the 
framework and been working earnestly to try and make it happen.
    Our members agree that when the integrated plan is designed 
and implemented properly, it will promote innovative solutions 
that deliver results. We have collaborated with EPA. We have 
collaborated with our partners here in DC, and we have brought, 
as my case in New England, three workshops where States, 
communities, municipalities of a larger proportion, meaning 
cities as well as towns, and in addition, the consultant 
private sector community together to talk about implementing 
the integrated planning approach of which there is tremendous 
interest and respect thereto.
    Cities in each and every one of our New England States, as 
well as New York, are vitally interested in moving forward with 
this concept.
    During the workshops, what I wanted to share with you this 
morning is a range of implementation challenges were 
identified, including the potential increased burden on State 
resources, consistency and interpretation and application 
between EPA Regional offices and EPA Headquarters; the level of 
detail necessary for plan approval; and how best to handle 
financial capability issues.
    The workshops also exposed several statutory and regulatory 
challenges to implementation that must be overcome for this 
effort to move forward. Progress has been made, but there still 
is yet a lot to be done.
    It is clear that the integrated planning framework 
anticipates a prominent role for State permitting authorities, 
and we appreciate the Agency's recognition of our role as 
coregulators responsible for ensuring that the goals of the 
Clean Water Act are met. Yet the details of the role are still 
not clear.
    The framework makes clear that the State permitting 
authorities will need to approve the integrated plan as 
developed by municipalities, but it does not provide details on 
how exactly States should perform this role. EPA has repeatedly 
stated that it intends to provide practical examples and 
guidance as it works through the first integrated planning 
efforts, but active members are still waiting for these details 
to be fleshed out.
    The committee can assist the States by encouraging EPA to 
move more quickly, to develop case studies and practical 
examples of how integrated planning works, and by sustaining 
adequate Federal funding to support these programs.
    In addition to the lack of clarity with regard to the 
responsibilities of State permitting authorities, ACWA members 
are concerned that while EPA anticipates States taking the 
primary role in reviewing and approving integrated plans, EPA's 
authority will linger over the process until the Agency makes 
clear that it will support State decisions.
    State time and resources are at a premium, and States are 
concerned that they will invest time and resources in the plan 
review and approval only to have EPA question that decision in 
the end.
    States are also concerned that EPA will object to a permit 
based on an integrated plan that was approved by a State.
    Finally, the States are concerned that after a plan is 
developed and implementation is underway that EPA could come in 
and order more stringent or different controls or approaches to 
manage pollution.
    Certainly this type of action by the Agency would undermine 
the economic savings envisioned by integrated planning. The 
role of the States and EPA needs to be clearly defined so that 
the integrated approach agreed upon by the States and 
municipalities can be relied on by all stakeholders.
    We are very much engaged and intentioned to move forward 
with this process. ACWA encourages EPA to begin exploring the 
ways that the permits can legally and effectively incorporate 
integrated plan elements into each and every permit that is 
employed. The Agency could begin developing a set of guidelines 
or a model permit where the Agency is the Clean Water Act 
permitting authority. The process of developing a model permit 
would help identify any barriers to implementation and enable 
the Agency and the regulated entities to test out solutions to 
overcoming the challenges that many of our municipalities as 
well as the States are faced with.
    A model permit or case study completed in a State where EPA 
is the permitting authority would tremendously help the process 
move along. We need a template, and we are finding that we do 
not have one.
    To conclude, I want to emphasize that ACWA's members are 
supportive of the integrated planning framework and we 
appreciate EPA's efforts and receptivity to our comments and 
concerns. However, many of the concerns I have outlined here 
today will not be put to rest until there are more real world 
case studies and guidance for the States to follow. We 
encourage EPA to quicken the pace of identifying and conducting 
case studies to test and evaluate the best way to move forward 
with developing and implemented integrated plans for all of the 
communities, for example, that I have in my district of 
authority who are anxious to move forward without hesitating.
    Thank you.
    Mr. Gibbs. Thank you. I want to thank you all for coming in 
again, and your dedication to enhancing and improving the 
environment, protecting the environment, and also to protect 
your ratepayers or your customers.
    And I have got to single out Mr. Berger. I just understand 
that your flight was canceled last night, and you got in your 
car and drove last night from Lima. That is a good 10-hour 
drive so I can understand you might want to take a nap later.
    First of all, I wanted to start out with kind of the theme 
here. You know, we are trying to figure out why the EPA came to 
this committee 2 years ago and put this forth, and it looks 
like there has not been the leadership from Washington, DC, 
into the regional offices, and the first part of my question 
is: is it because there is a culture within the EPA?
    I know Mr. Berger talked a little bit about the enforcement 
and the penalties, and what has been frustrating to me is to 
see when an entity, such as the entities that you all 
represent, is working hard to do what you need to do to comply 
with the Clean Water Act and at the same time you are being 
fined with enforced penalties.
    Do you think that there has been the lack of leadership 
from Washington to the regional offices or is it just a culture 
within the whole EPA that we have got a whole cultural problem 
and they cannot adapt?
    Does anybody want to answer?
    Mr. Portune. Mr. Chairman, Ranking Member and members of 
the committee, our experience has been that there may be 
cultural aspects connected to it. There are differences between 
the permitting side and the enforcement side of EPA. Sometimes 
it just simply comes down to individuals and their experience, 
what their experience has been.
    But the bottom line is that there is not consistency in 
terms of delivering the message that we are receiving out there 
in the field. So sometimes we are seeing differences between 
districts or regions, I should say, in the approach, and even 
within a region it depends on who shows up as a regulator 
sometimes in terms of how the approach is going to be, and that 
is why we believe that there is definitely a need for 
congressional oversight, definitely a need for new legislation.
    And that is why H.R. 2707 has embraced within it real 
transparency and accountability.
    Mr. Gibbs. Let me ask kind of a followup and anybody else 
can address it, too.
    Like in Lima you have been working to develop an integrated 
plan, what is the involvement of the EPA during the 
development? Are they there working with you or what is the 
status of that?
    Mr. Berger. We have been not only developing a plan but 
also negotiating a consent decree, and I can say that that has 
been an entirely frustrating process. The last time we were at 
the table in Chicago, folks from headquarters were in the room 
and had they not been there, it would not have gone well. It 
was only the presence and the active engagement of folks from 
headquarters that actually moved the discussion. Otherwise the 
discussion would have been over very quickly.
    So I would assert that you can use the term ``culture,'' 
but the fact is that the regional offices do not believe in 
integrated planning. They are actively resisting it, and 
headquarters has not had the ability to discipline those 
offices to make certain that things are happening.
    I think that the issues of penalties that you raise are a 
very real part of not just culture. It is policy. It is policy 
at DOJ and EPA to penalize cities and other POTWs as a way of 
enforcing, bludgeoning, goading people and intimidating folks.
    It has nothing to do with the shared stewardship 
responsibility that cities, States and the agencies have. And 
that policy needs to change, and I have had direct 
conversations with folks at the White House. They have said to 
me they agree, but nothing yet is happening.
    That policy of requiring penalties simply extracts money 
from local communities that have nothing. I mean, we have lots 
of things to do with those resources, and paying hundreds of 
thousands or millions of dollars in penalties that go into the 
U.S. Treasury effects nothing in terms of good public policy in 
my community or any other community around the country.
    Mr. Gibbs. I also see in Mr. Meyer's testimony you talked 
about I think it was four points, examining community 
priorities, prioritizing the solutions, and then the financial 
capability. I like that approach, and it goes on here in your 
testimony and you talk about we have got to find the source of 
the pollutant as the major problem, mitigating that, and move 
on to the next pollutant.
    Of course part of this whole concept of integrated 
permitting is to give you that flexibility to address your 
needs because the needs of Lima, Ohio, are probably different 
than the needs in New York City or Dallas, Texas, or wherever. 
Then also it gives you that flexibility.
    So I think legislation is needed here because we are 
hearing this testimony, but I want to ask Mr. Meyer when you 
say out these phases and do this, what are you hearing from the 
EPA when you are saying you have got this plan?
    We are doing this. We are trying to work with the local 
community, and then we also take in the financial capabilities 
of the local community to support this.
    Mr. Meyer. To start off with, we were taking a Missouri 
solution to clean water. Find the pollutant, find the source, 
remediate the source. It is very simple, and it should be very 
effective.
    We then move on to the next pollutant. We have formed a 
citizens priorities task force which is currently gathering, 
and they are helping us to determine what the community's 
priorities are.
    The first pollutant may be a water pollutant. The second 
pollutant may be an air pollutant. We want to be flexible 
enough that we can move around to different sources.
    EPA Region 7, Dr. Brooks and Director Pauley of the 
Missouri Department of Natural Resources, when we developed our 
proposal, we invited them in and explained what our proposal 
was. They seemed very supportive. We had a very good 
discussion.
    In Missouri, EPA Region 7 had delegated that responsibility 
for consent decree negotiations for Springfield to the Missouri 
Department of Natural Resources as well as the integrated plan 
development. We have had Missouri Department of Natural 
Resources in all of our technical committees, as well as a 
technical resource to the citizens committee. They have been 
very active and very supportive.
    So far we have presented to EPA twice, to the senior staff. 
We have kept the headquarters as well as Region 7 up to date. 
Every time we have a movement forward we update them, and so 
far EPA Region 7 has not said stop.
    Mr. Gibbs. I am out of time, but just a quick followup. One 
of the things in integrated permitting is to get longer permit 
time extension. It is currently 5 years, maybe 10 years or 
longer. When any of you have had discussions with EPA on that, 
do you feel real push-back on that or is that a nonissue on the 
permit extensions?
    Mr. Portune. Chairman Gibbs, if I may, since in Hamilton 
County we are in a consent decree, it is about $4 billion that 
local rate payers are paying, and one of the programs that we 
were required to do within the original consent decree under 
the new integrated planning and flexibility, we were allowed to 
present a green bill alternative to that.
    But here is where the flexibility and the time extension 
stopped. Number one, we did not have help in terms of working 
with EPA as a partner on that. We had to design it on our own. 
So the consent decree required a gray build solution that cost 
about twice as much as a green build approach, but we had to 
come up with a green build approach by a date certain. We had 
to do all of the research and the evaluation behind it, and if 
we wanted to follow that approach, we were not given the 
extension of time in order to meet the requirement of dealing 
with that one issue.
    So if our green build solution was not approved, we had to 
have a gray build solution that was ready to go or else we 
faced very, very stiff penalties.
    Mr. Gibbs. OK.
    Mr. Portune. So what we had to do was go forward on 
parallel tracks and design both, very expensive, very time 
consuming, resources wasted, as opposed to there being a 
flexible approach. It was still very much in the adversarial 
relationship as opposed to a partnership relationship, which is 
what we need in local communities and working with EPA.
    Mr. Gibbs. OK. Thank you.
    Mr. Bishop.
    Mr. Poltak. Could I just add relative to the 5-year permit 
just one quick?
    Mr. Gibbs. Go ahead.
    Mr. Poltak. The 5-year permits that ensure compliance with 
water quality standards are a real problem in terms of not 
being able to extend that time period associated with being 
able to meet in a conceptual sense the requirements that we are 
trying to address under an integrated planning approach. I mean 
it just goes without saying.
    Mr. Gibbs. Thank you.
    Mr. Bishop.
    Mr. Bishop. Thank you very much, and thank you to the panel 
both for your work on this very important issue and for you 
testimony.
    I want to stay on this 5-year permit issue, and I 
understand the concern that water quality solutions obviously 
could take longer than 5 years, and if you have a 5-year permit 
what happens at the end of it.
    But my understanding is that the EPA has built in extended 
periods of compliance to 5-year permits. For example, the city 
of Boise has a permit that memorializes obligations for 10 
years after the permit begins; the same with the city of 
Chicago. For Milwaukee it is 7 years.
    So I guess my question is: is this an example of selective 
use of discretion on the part of the EPA such that it is not 
something that all communities can count on?
    So I guess my fundamental question, Mr. Poltak, is if the 
EPA is willing to do it for the communities that I have cited, 
and I am sure there are others, why is it that there is not the 
capacity to do it for other communities?
    Mr. Poltak. The way I can answer is we would expect that to 
be the case nationwide. Our communities in our region are 
saying that there is no financial forgiveness in the integrated 
planning process, and the cities are well aware of that.
    But in terms of being able to deliver on the mandates that 
are mounting and the costs that are escalating, we have to have 
that way of thinking incorporated into our regions through 
headquarters as a message. It has to be the case to make this 
work.
    Mr. Bishop. So I am sorry. I want to just put this in my 
own words. So you are saying that the regional offices, let us 
say, that have jurisdiction over Boise, they are getting the 
message from headquarters, but the other regional offices are 
not. Is that basically what you are saying?
    Mr. Poltak. I think what I am imply saying is what we are 
talking about here in terms of added flexibility and extended 
permit time limit has to become a national policy that is 
allowed to be negotiated.
    Mr. Bishop. Anyone else want to comment on this particular 
issue? Mr. Berger.
    Mr. Berger. I do think it is based upon individual cities, 
individual relationships that get built between cities and 
certain Administrators.
    I think what is also important here is not just the idea of 
longer permits, but the adaptive management approaches and also 
building that into approaches that are outside consent decrees, 
allowing these to be part of the natural, the framework of 
permitting that is allowed and that gives cities the shelter 
that the Agency believes the consent decrees give from citizen 
lawsuits.
    These are things that ought to be a part of the framework 
available to every city, and I want to emphasize that idea of 
every city in the United States having the opportunities under 
the Clean Water Act framework. Part of our concern from the 
Conference of Mayors with the other 2 bills that are offered is 
that the pilot program is limited to a number of cities, 15 per 
year, and with the Clean Water Affordability Act, discretion 
remains entirely with the Agency.
    We believe that there has to be a real opportunity within 
the law that limits the EPA's discretion; that, in fact, gives 
cities shelter they can rely upon, not relying upon 
individuals, not relying upon the personalities of regional 
offices or even personalities here in headquarters.
    A big concern I have right now is that Mr. Perciasepe has 
announced that he is going to be leaving. A concern we have is 
how much momentum is going to be lost because his leadership is 
leaving the Agency, and does that signal to those in the 
regional offices that the pressure is now off and it is back to 
business as usual?
    Mr. Bishop. Thank you.
    I just have one more question and, Mr. Portune, it is for 
you. You spoke in your testimony quite favorably about using 
green infrastructure approaches as both a means of addressing a 
problem and as well as saving money over both the short term 
and the long term. Can you talk more about that, just what sort 
of broad-based advantages green infrastructure approaches 
provide to municipalities?
    Mr. Portune. Yes. Ranking Member Bishop, thank you very 
much.
    Our experience is that green infrastructure, watershed 
management, daylighting streams, riparian issues, detention 
areas to keep rainwater out of sewers, things of that nature 
give us an opportunity, number one, to transform neighborhoods 
because the green solutions are also the kinds of things that 
people want in their communities, so not huge gray build, 
overbuild type of things that dominate a neighborhood, but they 
lend themselves to community beautification and other quality 
of life issues that are very important.
    Second, the green build approaches tend to be less 
expensive, and yet they are more efficient and quicker to put 
into place. So the benefit that we see there obviously is we 
can get the job done quicker. We can also get the job done 
cheaper, which is important to our ratepayers.
    The one issue that I mentioned earlier with respect to the 
two approaches where we still had to meet the deadline, there 
as a savings of about $250 million. The gray build approach was 
almost twice as expensive as the green building approach. So, 
therefore, having the flexibility to implement new 
technologies, new science, green build approaches, adaptive 
management, watershed management is very important to local 
communities for those reasons.
    I did want to say one other thing, Chairman Gibbs, if I 
may, with respect to Mayor Berger's comment about H.R. 2707. 
The 15 showcase communities is not a limitation in terms of 
flexibility or the full implementation of an integrated 
planning process. We embrace that fully for all cities. That 
flexibility has to be built in for all cities, and what that 
bill does is it requires reporting, accountability, 
transparency with respect to all of that, and congressional 
oversight so that we have EPA consistently implementing its 
policy completely.
    The 15 communities is to build a partnership relationship 
that becomes cultural within the Agency and to build the data 
so that EPA becomes much more comfortable with green build 
approaches than they are today.
    Mr. Bishop. Thank you very much.
    I am way over my time, Mr. Chairman. Thank you for your 
indulgence.
    Mr. Gibbs. No problem. Mr. Crawford.
    Mr. Crawford. Thank you, Mr. Chairman.
    I have just a quick question of all of you. In my district 
in Arkansas, we are kind of struggling with the critical 
habitat designation that will affect about 41 percent of the 
States. So as you can imagine, there are a lot of small cities 
and towns, a lot of municipalities that are concerned about how 
that will impact them in obtaining permits.
    I am just wondering from each of you if you can comment if 
you have had any experience with obtaining permits from the EPA 
because of an endangered species or the potential of an 
endangered species that resides in a body of water like, for 
example, a river that you might utilize for discharge after 
treatment.
    Any comments on that? We will start with Mr. Berger.
    Mr. Berger. No experience in water, but we have dealt with 
Indiana bat habitat issues and associated concerns like that.
    Mr. Crawford. OK. Thank you.
    Mr. Portune. I wish I could help you, but no direct 
experience with that, Congressman, in Cincinnati, Hamilton 
County, with what we are doing at this point.
    Mr. Crawford. OK.
    Mr. Meyer. Congressman, since we are neighbors, we have 
similar problems. Our DNR is trying to implement ammonia to 
protect mussels. Missouri is unfortunately mussel rich, and we 
have plenty of them. Some of the smaller communities will see 
increases from $32.75 a month to $354 per month just to address 
ammonia for mussels.
    This is a community that has 155 residents, 45 connections. 
They have absolutely no way to pay for it. The permit was 
issued.
    Mr. Crawford. Thank you.
    Mr. Poltak. Representative, we have had a lot of experience 
in New England associated with that type of issue. It is a 
long, costly, negotiated process to get to an endpoint. I would 
be glad to put my staff in touch with yours and follow up to 
any level of detail you might be looking for in that regard.
    Mr. Crawford. That would be great, any input you could have 
based on your experience and how you might expedite the 
process. I know that it can be a problem.
    Mr. Meyer, you mentioned the mussel. That is primarily the 
issue that we are having in Arkansas is the Neosho Mucket and 
the rabbitsfoot mussel. So we are experiencing a similar 
problem downstream from you.
    Mr. Meyer. In our opinion, mussels are very delicious.
    Mr. Crawford. Thank you.
    Mr. Chairman, I yield back.
    Mrs. Napolitano.
    Mrs. Napolitano. Thank you, Mr. Chairman Gibbs and Ranking 
Member Bishop, for holding this very important hearing on the 
affordability and flexibility within the EPA permits.
    As a former mayor, I know how devastating unfunded mandates 
are to our communities that are trying to do their best and the 
right thing in addressing the environmental needs of our 
Nation's communities, but also let us not forget and be aware 
that more new laws and their unintended consequences could have 
a problem with you.
    Cities have been facing budget restrictions, and the 
recession has hit them hard, and with more unfunded mandates 
this is not necessarily something that we want to go over 
lightly, but be sure that we do protect our cities.
    EPA's integrated planning framework is a very good first 
step towards addressing the financial burden that many cities 
are facing with meeting their obligations under the Clean Water 
Act, but more, much more needs to be done to address the 
current and growing disparity in the water costs on the poor, 
and I stress that, the poor.
    The biggest problem facing my district in Los Angeles 
County is the expected cost of implementing a new municipal 
stormwater permit. It has increased the amount of total maximum 
daily loads, the TMDLs, of pollutants regulated to 33 from the 
last permit, which was two TMDLs.
    The Public Works Department of L.A. County, 13 million 
people, say the permit will cost at least $850 million per year 
to comply. That is million. That means every city with 50,000 
residents will have to pay approximately $10 million per year.
    Mr. Chairman, I ask to submit for the record a letter to 
you and Ranking Member Bishop from my constituent, mayor of 
California's city of Monrovia, Mary Ann Lutz, with an attached 
report from the U.S. Conference of Mayors regarding financial 
impact of Clean Water Act permits on just some of the 
economically vulnerable cities in Los Angeles County.
    Mr. Gibbs. So ordered.
    Mrs. Napolitano. Thank you, sir.
    Mayor Lutz is the leader in the L.A. County water quality 
issues and helping our cities and the Council of Governments 
deal with the new MS-4 stormwater permits. She states that ``it 
has become readily apparent that the cost for water and 
wastewater mandates has grown to an alarming rate and is 
disproportionately impacting our poorest and our most 
vulnerable citizens.''
    The problem is EPA established affordability guidelines 
based on median household income at a maximum of 4.5 percent, 
which does not take into account personal household income. 
This means that poor people pay far more as a percentage of 
their income towards their water bill than anybody else.
    The Conference of Mayors report cites examples from 
communities in the L.A. region that were surveyed, and that is 
in the record. Every city experiences the greatest financial 
impact amongst the lower median income household groups, 
especially those households with annual income below $15,000.
    Residents of the city of La Verne in my district currently 
experience regressive financial impacts from public water costs 
in households earning up to $50,000 in annual income. The 
poorest households in several cities are spending a significant 
amount of their actual income over a 10-year period on public 
water services and the compliance with various Federal and 
State regulations: in the city of Inglewood, $30 million; La 
Verne, $25 million; Redondo Beach, $29 million, and La Mirada, 
$9 million; the poorer half of the American households 
currently bear a disproportional financial burden paying for 
public water services. With the new L.A. County stormwater 
permit, this proportionate burden will creep into the middle-
class income groups.
    Mr. Chairman, we need to seriously look at this issue and 
try to find some commonsense solutions that still protect 
public health and the environment, but do it in a way that does 
not necessarily burden our low-income and middle-income 
residents.
    And to that I want to add that we need to help cities 
develop information for their public-private partnerships and 
be able to find other means of being able to support doing the 
remedies that are expected of all of us. We have, of course, in 
the U.S. some of the best water than other countries, and we 
need to be able to protect that, but also ensure that this 
proportionate impact does not hurt those communities that 
really cannot afford any more unfunded mandates.
    And with that I return the balance of my time.
    Mr. Gibbs. Thank you.
    Mr. Davis.
    Mr. Davis. Thank you, Mr. Chairman.
    I am glad my colleague from California talked about the 
affordability issue. That is, frankly, why we are here. I know 
it was addressed a little earlier before about the disconnect 
between what happens here in Washington versus what happens on 
the ground in the regional offices that regulate States like 
mine.
    As a matter of fact, just a few weeks ago in this hearing 
room a Deputy Administrator from the EPA told me he was at a 
loss when I brought up the fact that they were regulating 
aboveground septic discharge units in Illinois when we were 
talking about the new proposed rule under the Clean Water Act.
    So it does not surprise me when we hear examples that Mr. 
Meyer talked about of a community that is going to face a 
burden upwards from $30 a month to $300 a month just to get 
water due to the impacts of regulations out here in Washington, 
and it is affordability. All Americans when you look at 
statistics, the wages for American families have gone down 
every year since 2007. American families are not living in a 
healthy economy right now, and they are having to do more with 
less.
    It seems as though while we are asking American families to 
do more with less, agencies like the EPA are asking cities to 
provide more regardless of the cost. Now, this affordability 
issue has got to be addressed because in the end, the burden 
falls on the taxpayers, falls on the hard working families in 
this country.
    So on the affordability issue, and I want to ask each of 
you to respond, how optimistic are you that the EPA will adjust 
its affordability guidelines and move away from its enforcement 
approach to the clean water requirements in order to allow 
communities like yours, Mr. Meyer, and like yours in Hamilton 
County, to prioritize your requirements based upon the cost 
versus the environmental impact?
    And what suggestions do you have to us as a legislative 
body to make some positive changes in this arena?
    Mr. Berger. I have a couple of things to say in that 
regard. The first would be that we applaud the current 
discussion. We want to see integrated planning go forward.
    But in addition Congress needs to change the Clean Water 
Act because the language of the act has enabled this set of 
regulatory actions to be fostered in a thoroughly unlimited 
way, and so, for example, there is language in the act that 
says there will be no sanitary sewer overflows. It is absolute, 
regardless of what the environmental impact is.
    And I have sanitary sewer overflows in my community.
    Mr. Davis. Most communities do.
    Mr. Berger. There is no demonstrable public health or 
environmental impact from spending millions of dollars to 
eliminate those SSOs, but the Agency has no discretion because 
of the way the act is written.
    Furthermore, there is in the law what are called use 
attainability analyses, and it is the fact that law requires 
that the Agency is to determine that certain uses can, in fact, 
be obtained, but the Agency minimizes that, discourages States 
from using it. The law needs to be changed to make certain that 
this provision for use attainability analyses of the Clean 
Water Act, in fact, undergirds all the regulatory decisions 
that are being made so that we are not spending money on 
streams.
    I have an intermittent stream. That term means it dries up 
in the summer. So when we start looking at all of the range of 
potential wildlife in the stream, the river may not ever make 
it just because it all dries up in the summer.
    Those kinds of language changes within the law are 
necessary. So we must have integrated planning. It must work. 
The regional offices must get the message, but we have to have 
changes in the Clean Water Act as well.
    Mr. Davis. Thank you.
    Mr. Portune.
    Mr. Portune. Congressman, thank you for asking the question 
and also Congresswoman Napolitano for raising the issue of 
affordability, both of you in bringing our attention around to 
that. It is critically important.
    First, in direct answer to your question, we do not believe 
anything short of an act of Congress is going to compel the EPA 
to effectively and responsibly address the issue of 
affordability in a way that provides real relief to those who 
need it. There is no sense of proportionality or balance with 
EPA on this issue at all.
    My general fund budget for everything we do as a county, 
sheriff, corrections, the courts, coroner, auditor, treasurer, 
general government services is $210 million a year. I have to 
raise in excess of $220 million a year new, on top of that, 
just to meet our consent decree obligations under the Clean 
Water Act, and when we raise those issues, the reaction that we 
get typically is, ``Well, it is the law. You have to do what 
the law requires.''
    So there is no sense of proportionality in terms of 
prioritization, of what is more important or things of that 
nature. We need Congress to act.
    Now, I applaud what the Conference of Mayors is doing and 
others that want to change provisions in the Clean Water Act. 
Those things will provide immediate relief. We have avoided 
proposing that in H.R. 2707 because we thought that would, 
frankly, result in a long, elongated, contentious legislative 
process that might not get anything done, and we need help now. 
We need relief now.
    So what H.R. 2707 does is, one, it codifies this entire 
process of integrated planning, flexible approaches, adaptive 
management practices, and compels annual reporting on that and 
compliance with that and consistency among the regions and 
within the regions on that. That will be of direct help.
    And, second, the showcase communities program will develop 
a body of data that all communities can benefit from with 
respect to an entire new way of addressing these issues that 
save dollars.
    The poorest in my community are poverty stricken families. 
Households have gone up by 60 percent in the last 10 years. I 
have got over 50 percent of children living in poverty in my 
community, but those are the very families that will benefit 
from the $500 million to $1 billion in savings that we will 
realize from a mandated flexible approach that allows us to 
prioritize and use new processes, new approaches that will save 
money.
    To us a dollar saved is just as important as a dollar 
given, and being able to save money is critically important, 
and we need that help now.
    Mr. Davis. Thank you.
    If the chairman will allow him to answer.
    Mr. Gibbs. Go ahead.
    Mr. Meyer. I agree that Congress needs to act. We would 
like to see this committee to cosponsor H.R. 3862. We believe 
that does bring some responsibility to EPA.
    We also have ephemeral streams. They only flow 3 to 4 days 
after it rains, yet they are classified and must be fishable/
swimmable. Can you imagine somebody fishing in a gravel bed? 
And that is what it would amount to. They only flow when it 
rains.
    There are a number of cities that have the experience that 
I just mentioned to you. They are smaller communities. We see 
absolutely no way that they can afford these permits, and it 
has been issued. In fact, the only way that we can see this 
village can meet their regulations is to close their treatment 
systems and use the facilities in Unionville 30 miles away.
    Mr. Davis. Thank you.
    Mr. Gibbs. Go ahead.
    Mr. Poltak. I will be quick. When I go around and talk to 
young college students and I talk to young adults associated 
with the history in our Nation of clean water, I always 
emphasize that the Clean Water Act is probably one of if not 
the most successful statutes we have had in place over time to 
deal with clean water issues. That is, in fact, the case.
    I just give you Boston Harbor as an example. I use a 
picture of my son who is now 32 years old standing in Boston 
Harbor when we could not get on a boat when he was 3 years old 
because it was too contaminated to spend a day out in the 
harbor, and now he is fishing for stripers off the shore in his 
professional working career when he has time off.
    I hate to elaborate, but my point is that the EPA has also 
done a wonderful job over the years. I do not tend to bash 
them. Without the EPA we would be nowhere respectful of the 
success stories that we can share here today.
    I want to plea to you all associated therewith that the 
mandates we are talking about, the elimination of nutrients, 
phosphorus, the like in our water bodies which is existing 
throughout New England as a matter of course, the nonpoint 
source program is voluntary. We cannot continue to ratchet down 
on treatment facilities and utilities to get the job done when 
we are trying to at this point--well, we just cannot go much 
further with it.
    With that said, my point is that we need help out of 
Congress. The age-old way of funding water may not be the way 
of the future. We cannot sustain our needs and the obligation 
that the Federal Government has to make, which has assured 
success in the past, without a recommitment and reinvigorating 
new concept, idea, commitment, whatever it takes.
    The fact of the matter is that the greater good is served 
by further Federal dollars associated with the point of clean 
water, and without it we cannot get the job done. It becomes 
unaffordable, and the level of commitment and burden that is 
placed on our citizens is intolerable. So I mean, that is where 
I am coming from.
    Mr. Gibbs. Thank you.
    Ms. Edwards. We lost her. Mr. Mullin.
    Mr. Mullin. Well, I will leave it to Rodney to do that. I 
appreciate it because it sped me up. I thank you for that.
    Panel, thank you for being here. Is it Berger? Is that 
right, Mr. Berger?
    Mr. Berger. Yes, sir.
    Mr. Mullin. Just what the chairman said about you driving 
10 hours to be here shows your dedication to your town and the 
importance that this has on all the communities around the 
country.
    This is also something I have dealt with. See, I have been 
in this business for over 17 years, not politics, but this 
right here. I am actually a licensed operator. I operate 
plants, and I have operated plants, and I saw a great shift 
over the last 7 years where DEQ used to regulate me, and that 
is where I still receive my licensing from, and I am sure that 
is still where you receive your license from, but yet they have 
zero impact anymore because it is the EPA now that is calling 
all the shots.
    My question to the panel, and I will let you kind of 
elaborate on this: is where does the role play now with DEQ?
    I mean, I used to complain about DEQ all the time, the 
Oklahoma DEQ, Oklahoma Department of Environmental Quality, and 
I have worked in many of your all's States with the company 
that we own that is called Mullin Environmental, and we process 
waste and water, and the compliancy now that the EPA is putting 
out there, you cannot comply with it, not with the technology 
that is here, not on the backs of these small communities.
    Yet DEQ had some common sense to them because they lived, 
worked, and breathed in the same communities. Now that the EPA 
has come in there, and I have heard this over and over again 
from the panel, there is no common sense. There is no 
justification or rhyme or reason, but yet you are having to pay 
for it.
    Mr. Meyer, I heard you say that one community, which I 
represent a very rural community, all the actually rural 
communities in Oklahoma on the eastern side; one community 
where their water bill is going to go from $30 to $300 to 
comply with the new mandates. Did I hear that right?
    Mr. Meyer. Yes, sir. That is correct.
    Mr. Mullin. Because of the EPA requirements. Now, has 
anybody gotten sick in that community? Has DEQ failed to do 
their job?
    Mr. Meyer. No, sir. Nobody has gotten sick. We see very 
little impact on the human health due to SSOs. We need to stop 
them, but let's do it in an affordable manner.
    Mr. Mullin. But is the EPA's role here not to protect the 
health and safety of others when it comes to pollution and 
clean water, what we are drinking, right?
    Mr. Meyer. That is correct.
    Mr. Mullin. Was that not the same role that DEQ was playing 
inside the State?
    Mr. Meyer. We have found that our DNR, and it feels great 
to be here today. I have got Illinois. I have got Oklahoma. I 
have got Arkansas.
    Mr. Mullin. Well, Oklahoma is better. We all know that. I 
mean, come on.
    [Laughter.]
    Mr. Mullin. I mean look at us. You know which one looks 
better.
    Mr. Meyer. But our Department of Natural Resources is 
centered in Jefferson City. They have delegated the work with 
us to the region, which is in Springfield, Missouri. We have 
found that the people on the ground do understand the issues. 
They do understand affordability, but they also do have their 
hands tied.
    Mr. Mullin. So, Mr. Berger, inside your community?
    Mr. Berger. We had a long-term control plan actually 
approved by the State of Ohio.
    Mr. Mullin. By DEQ?
    Mr. Berger. By our Ohio EPA, and that was preempted 10 
years ago after 5 years of our beginning implementation, and 
that price tag on that approved plan was $60 million.
    What we are now negotiating is a consent decree that we 
have been working on for over 10 years. That price tag is 
approaching $150 million.
    And so the State's EPA, Ohio's EPA was neutered in the 
process, and we are the ones that had to insist in the last 
year and a half that they needed to be back at the table 
because we were getting caught between obligations on our NPDS 
permit versus what the consent decree was now obligating us to.
    So, again, it goes back to the issue of a balance of 
relationships, a stewardship approach that is now lacking. It 
is much more a top down approach from the regional office to us 
and to the State.
    Mr. Mullin. I think it was you, sir, that had mentioned 
about the fines.
    Mr. Berger. Yes, sir.
    Mr. Mullin. Can you elaborate a little bit just for the 
record of what these fines are being paid for because of?
    Mr. Berger. My understanding is that the fines are a part 
of a consent decree process which is in itself necessary 
because of our violations of the Clean Water Act.
    Mr. Mullin. But you have not had any violations with your 
State agencies. These are all from Washington, DC. They are the 
ones giving you the fines, right?
    Mr. Berger. Correct.
    Mr. Mullin. And how much have you spent in your community?
    Mr. Berger. We are now in the process of spending another 
$25 million. We had spent $10 million up to that point.
    Mr. Mullin. In just fines?
    Mr. Berger. Not in fines, no.
    Mr. Mullin. In trying to comply.
    Mr. Berger. The fines we have not yet paid, and I am 
unwilling to pay them.
    Mr. Mullin. And I support you in that, too. You have 
critical infrastructure needs. You are trying to comply with 
unfunded mandates, and if they are going to throw it out, then 
they should be giving the States the financial resources to be 
able to do it, not put it on the backs of these small 
communities.
    But so many of these agencies, they have never even lived 
in these communities, and yet they do not understand the impact 
it is going to have like, Mr. Meyer, you saying one community 
with 150 people and their water bill is going to go from $30 a 
month to $300 a month, and most of them will not be able to 
afford that.
    Do you want to respond to that?
    Mr. Chairman, do you mind if he responds to that?
    Mr. Meyer. That is absolutely correct. I just want to say 
that is absolutely correct.
    Mr. Mullin. Thank you, panel, for being here.
    And I went over my time. Chairman, thank you for 
entertaining my lateness.
    Mr. Gibbs. Mr. Davis from Illinois wanted a rebuttal, but 
we are not going to let him do it.
    I want to thank all of the witnesses for coming in. This 
has been very helpful, and it is my intent and commitment that 
we need to move forward with some legislation to address all of 
your issues, and we will be working that. But this hearing 
today was very helpful to get to that point.
    So thank you for coming and have a safe trip back.
    That concludes the hearing.
    [Whereupon, at 11:25 a.m., the subcommittee was adjourned.]
    [GRAPHIC] [TIFF OMITTED] T8819.012
    
    [GRAPHIC] [TIFF OMITTED] T8819.013
    
    [GRAPHIC] [TIFF OMITTED] T8819.014
    
    [GRAPHIC] [TIFF OMITTED] T8819.015
    
    [GRAPHIC] [TIFF OMITTED] T8819.016
    
    [GRAPHIC] [TIFF OMITTED] T8819.017
    
    [GRAPHIC] [TIFF OMITTED] T8819.018
    
    [GRAPHIC] [TIFF OMITTED] T8819.019
    
    [GRAPHIC] [TIFF OMITTED] T8819.020
    
    [GRAPHIC] [TIFF OMITTED] T8819.021
    
    [GRAPHIC] [TIFF OMITTED] T8819.022
    
    [GRAPHIC] [TIFF OMITTED] T8819.023
    
    [GRAPHIC] [TIFF OMITTED] T8819.024
    
    [GRAPHIC] [TIFF OMITTED] T8819.025
    
    [GRAPHIC] [TIFF OMITTED] T8819.026
    
    [GRAPHIC] [TIFF OMITTED] T8819.027
    
    [GRAPHIC] [TIFF OMITTED] T8819.028
    
    [GRAPHIC] [TIFF OMITTED] T8819.029
    
    [GRAPHIC] [TIFF OMITTED] T8819.030
    
    [GRAPHIC] [TIFF OMITTED] T8819.031
    
    [GRAPHIC] [TIFF OMITTED] T8819.032
    
    [GRAPHIC] [TIFF OMITTED] T8819.033
    
    [GRAPHIC] [TIFF OMITTED] T8819.034
    
    [GRAPHIC] [TIFF OMITTED] T8819.035
    
    [GRAPHIC] [TIFF OMITTED] T8819.036
    
    [GRAPHIC] [TIFF OMITTED] T8819.037
    
    [GRAPHIC] [TIFF OMITTED] T8819.038
    
    [GRAPHIC] [TIFF OMITTED] T8819.039
    
    [GRAPHIC] [TIFF OMITTED] T8819.040
    
    [GRAPHIC] [TIFF OMITTED] T8819.041
    
    [GRAPHIC] [TIFF OMITTED] T8819.042
    
    [GRAPHIC] [TIFF OMITTED] T8819.043
    
    [GRAPHIC] [TIFF OMITTED] T8819.044
    
    [GRAPHIC] [TIFF OMITTED] T8819.045
    
    [GRAPHIC] [TIFF OMITTED] T8819.046
    
    [GRAPHIC] [TIFF OMITTED] T8819.047
    
    [GRAPHIC] [TIFF OMITTED] T8819.048
    
    [GRAPHIC] [TIFF OMITTED] T8819.049
    
    [GRAPHIC] [TIFF OMITTED] T8819.050
    
    [GRAPHIC] [TIFF OMITTED] T8819.051
    
    [GRAPHIC] [TIFF OMITTED] T8819.052
    
    [GRAPHIC] [TIFF OMITTED] T8819.053
    
    [GRAPHIC] [TIFF OMITTED] T8819.054
    
    [GRAPHIC] [TIFF OMITTED] T8819.055
    
    [GRAPHIC] [TIFF OMITTED] T8819.056
    
    [GRAPHIC] [TIFF OMITTED] T8819.057
    
    [GRAPHIC] [TIFF OMITTED] T8819.058
    
    [GRAPHIC] [TIFF OMITTED] T8819.059
    
    [GRAPHIC] [TIFF OMITTED] T8819.060
    
    [GRAPHIC] [TIFF OMITTED] T8819.061
    
    [GRAPHIC] [TIFF OMITTED] T8819.062
    
    [GRAPHIC] [TIFF OMITTED] T8819.063
    
    [GRAPHIC] [TIFF OMITTED] T8819.064
    
    [GRAPHIC] [TIFF OMITTED] T8819.065
    
    [GRAPHIC] [TIFF OMITTED] T8819.066
    
    [GRAPHIC] [TIFF OMITTED] T8819.067
    
    [GRAPHIC] [TIFF OMITTED] T8819.068
    
    [GRAPHIC] [TIFF OMITTED] T8819.069
    
    [GRAPHIC] [TIFF OMITTED] T8819.070
    
    [GRAPHIC] [TIFF OMITTED] T8819.071
    
    [GRAPHIC] [TIFF OMITTED] T8819.072
    
    [GRAPHIC] [TIFF OMITTED] T8819.073
    
    [GRAPHIC] [TIFF OMITTED] T8819.074
    
    [GRAPHIC] [TIFF OMITTED] T8819.075
    
    [GRAPHIC] [TIFF OMITTED] T8819.076
    
    [GRAPHIC] [TIFF OMITTED] T8819.077
    
    [GRAPHIC] [TIFF OMITTED] T8819.078
    
    [GRAPHIC] [TIFF OMITTED] T8819.079
    
    [GRAPHIC] [TIFF OMITTED] T8819.080
    
    [GRAPHIC] [TIFF OMITTED] T8819.081
    
    [GRAPHIC] [TIFF OMITTED] T8819.082
    
    [GRAPHIC] [TIFF OMITTED] T8819.083
    
    [GRAPHIC] [TIFF OMITTED] T8819.084
    
    [GRAPHIC] [TIFF OMITTED] T8819.085
    
    [GRAPHIC] [TIFF OMITTED] T8819.086
    
    [GRAPHIC] [TIFF OMITTED] T8819.087
    
    [GRAPHIC] [TIFF OMITTED] T8819.088
    
    [GRAPHIC] [TIFF OMITTED] T8819.089
    
    [GRAPHIC] [TIFF OMITTED] T8819.090
    
    [GRAPHIC] [TIFF OMITTED] T8819.091
    
    [GRAPHIC] [TIFF OMITTED] T8819.092
    
    [GRAPHIC] [TIFF OMITTED] T8819.093
    
    [GRAPHIC] [TIFF OMITTED] T8819.094
    
    [GRAPHIC] [TIFF OMITTED] T8819.095
    
    [GRAPHIC] [TIFF OMITTED] T8819.096
    
    [GRAPHIC] [TIFF OMITTED] T8819.097
    
    [GRAPHIC] [TIFF OMITTED] T8819.098
    
    [GRAPHIC] [TIFF OMITTED] T8819.099
    
    [GRAPHIC] [TIFF OMITTED] T8819.100
    
    [GRAPHIC] [TIFF OMITTED] T8819.101
    
    [GRAPHIC] [TIFF OMITTED] T8819.102
    
    [GRAPHIC] [TIFF OMITTED] T8819.103
    
    [GRAPHIC] [TIFF OMITTED] T8819.104
    
    [GRAPHIC] [TIFF OMITTED] T8819.105
    
    [GRAPHIC] [TIFF OMITTED] T8819.106
    
    [GRAPHIC] [TIFF OMITTED] T8819.107
    
    [GRAPHIC] [TIFF OMITTED] T8819.108
    
    [GRAPHIC] [TIFF OMITTED] T8819.109
    
    [GRAPHIC] [TIFF OMITTED] T8819.110
    
    [GRAPHIC] [TIFF OMITTED] T8819.111
    
    [GRAPHIC] [TIFF OMITTED] T8819.112
    
    [GRAPHIC] [TIFF OMITTED] T8819.113
    
    [GRAPHIC] [TIFF OMITTED] T8819.114
    
    [GRAPHIC] [TIFF OMITTED] T8819.115
    
    [GRAPHIC] [TIFF OMITTED] T8819.116
    
    [GRAPHIC] [TIFF OMITTED] T8819.117
    
    [GRAPHIC] [TIFF OMITTED] T8819.118
    
    [GRAPHIC] [TIFF OMITTED] T8819.119
    
    [GRAPHIC] [TIFF OMITTED] T8819.120
    
    [GRAPHIC] [TIFF OMITTED] T8819.121
    
    [GRAPHIC] [TIFF OMITTED] T8819.122
    
    [GRAPHIC] [TIFF OMITTED] T8819.123
    
    [GRAPHIC] [TIFF OMITTED] T8819.124
    
    [GRAPHIC] [TIFF OMITTED] T8819.125
    
    [GRAPHIC] [TIFF OMITTED] T8819.126
    
    [GRAPHIC] [TIFF OMITTED] T8819.127
    


</pre></body></html>
